Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Madison Police Department Madison, Wisconsin
GR-50-00-016   
March 23, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Madison Police Department (Madison PD).  The purpose of the grants is to enhance community policing.  The Madison PD was awarded a total of $3,300,000 to hire 44 entry-level sworn police officers under the Phase I and the Universal Hiring Programs.

We reviewed the Madison PD's compliance with seven essential grant conditions and found the grantee's budgeting practices, hiring practices, matching funds, retention plan, and community policing activities to be acceptable.  However, its reimbursement requests contained inaccuracies that resulted in questioned costs totaling $134,111. 1  In addition, we noted weaknesses in Madison PD's reporting practices.  Specifically:

The Madison PD overstated its reimbursement requests by $134,111 because the officers' salaries and benefits exceeded the $75,000 cap per officer and salaries were computed using gross wages.

	Several monitoring and financial reports were untimely and/or inaccurate.
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.



Footnotes
The Inspector General Act of 1988 contains our reporting requirements for questioned costs; however, not all findings are dollar-related.  See Appendix III for the breakdown and definitions of questioned costs.